U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Hugo Humberto Perez Rangel v. United States, No. 20-6409
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 18,
2020. The government’s response is now due, after one extension, on January 27, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including February 26, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6409
RANGEL, HUGO HUMBERTO PEREZ
USA

KEVIN JOEL PAGE
ASSISTANT FEDERAL PUBLIC DEFENDER
525 GRIFFIN STREET
SUITE 629
DALLAS, TX 75202
214-767-2746
JOEL_PAGE@FD.ORG

